App. 1
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

UNITED STATES
OF AMERICA,
Plaintiff-Appellee,
v.
MALCOM DEROME
MCGEE,

No. 18-5019
(D.C. Nos. 4:15-CV00667-CVE-JFJ &
4:00-CR-00105-CVE-1)
(N.D. Okla.)

Defendant-Appellant.
-----------------------------------------------------------------------

ORDER AND JUDGMENT*
-----------------------------------------------------------------------

(Filed Jan. 14, 2019)
Before LUCERO, KELLY, and PHILLIPS, Circuit
Judges.
-----------------------------------------------------------------------

* After examining the briefs and appellate record, this panel
has determined unanimously that oral argument would not materially assist in the determination of this appeal. See Fed. R.
App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore ordered submitted without oral argument. This order and judgment
is not binding precedent, except under the doctrines of law of the
case, res judicata, and collateral estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1
and 10th Cir. R. 32.1.

App. 2
Malcolm Derome McGee appeals the denial of his
28 U.S.C. § 2255 motion, in which he challenged his life
sentence for drug trafficking imposed under 21 U.S.C.
§ 841. McGee received the life sentence because at the
time of his offense he had two prior final California felony drug convictions. See id. § 841(b)(1)(A) (increasing
punishment to mandatory life imprisonment if the defendant committed a violation involving a threshold
amount of drugs “after two or more prior convictions
for a felony drug offense have become final”). The state
of California later adopted Proposition 47, allowing its
courts to reclassify certain felony drug convictions as
misdemeanors. See Cal. Penal Code § 1170.18. A California court entered a nunc pro tunc judgment reducing one of McGee’s prior drug convictions from a felony
to a misdemeanor. McGee then filed his § 2255 motion,
arguing that he no longer had two prior felony drug
convictions and was entitled to resentencing on the
§ 841 count.
The district court determined, however, that
McGee still qualified for the life sentence as a matter
of federal law because both his prior felony drug convictions had been final and applicable at the time he
was sentenced under § 841. It therefore denied his motion. We granted McGee a COA to address the following issue:
Since one of the predicate state felony drug
convictions used to enhance Mr. McGee’s sentence to a mandatory life sentence under 21
U.S.C. § 841(b)(1)(A) has been retroactively
changed to a misdemeanor offense, does Mr.

App. 3
McGee’s life sentence now violate the Due
Process Clause or the Eighth Amendment, in
light of United States v. Johnson, 544 U.S. 295
(2005), and related cases?
BACKGROUND
In 2000, a federal jury convicted McGee of conspiring to possess phencyclidine (PCP) in violation of 21
U.S.C. § 846; causing another person to unlawfully possess with intent to distribute PCP in violation of 21
U.S.C. §§ 841(a)(1), 841(b)(1)(A)(iv) and 18 U.S.C.
§ 2(b); and using a communication facility to facilitate
the commission of a felony in violation of 21 U.S.C.
§ 843(b). Prior to trial, the government filed an information stating McGee had been convicted in Los Angeles County Superior Court of Possession of Cocaine
on November 7, 1987, and Possession of Cocaine Base
with Intent to Sell/Deliver on June 14, 1988. Because
McGee had two prior California felony drug convictions, the federal district court sentenced him to life
imprisonment on the § 841 count.1
In November 2014, California voters passed Proposition 47, also known as the Safe Neighborhoods and
1

The federal district court granted his motion to arrest judgment on the conspiracy count. On the § 843(b) count it sentenced
him to a term of fifty-six years to be served concurrently with his
life sentence. After we reversed the judgment on the § 843(b)
count on direct appeal and remanded for resentencing, see United
States v. McGee, 291 F.3d 1224, 1227 (10th Cir. 2002), he was resentenced to life imprisonment on the § 841 count and a concurrent term of 96 months on the § 843(b) count.

App. 4
Schools Act. Proposition 47 reduced certain drug possession offenses from a felony to a misdemeanor. It also
provided a procedure for those previously convicted of
a felony drug offense to petition the state court to redesignate their felony drug conviction as a misdemeanor. The new law provides that a felony conviction
re-designated as a misdemeanor “shall be considered
as a misdemeanor for all purposes,” except for the right
to possess firearms. Cal. Penal Code § 1170.18(k).
On March 12, 2015, acting on McGee’s petition, the
Superior Court of California in Los Angeles retroactively re-designated his 1987 felony drug conviction as
a misdemeanor. It also retroactively amended his original 1987 criminal complaint to allege a misdemeanor
offense.
McGee then filed this § 2255 motion.2 The district
court reasoned that federal law governed the nature
and effect of McGee’s prior California conviction as a
“felony drug offense.” Under federal law, he “had two
2

McGee filed a previous § 2255 motion, which the district
court denied. We denied him a COA to appeal from that denial.
United States v. McGee, 245 F. App’x 857, 860 (10th Cir. 2007).
He then filed two subsequent § 2255 motions, which the district
court dismissed for lack of jurisdiction as second or successive.
His current motion is not second or successive, however, because
his claim was not ripe when he filed his initial § 2255 motion. See
In re Weathersby, 717 F.3d 1108, 1111 (10th Cir. 2013) (per curiam) (“[I]f . . . the state court did not vacate [a movant’s] convictions until after his first § 2255 proceedings were concluded, [and]
the basis for his proposed § 2255 claim did not exist when those
proceedings were ongoing, his claim to reopen his federal sentence based on the state court’s vacatur is not ‘second or successive’ and does not require our prior authorization.”).

App. 5
felony convictions for felony drug offenses when he was
sentenced, and the subsequent reduction of one of
those felony convictions to a misdemeanor due to a
change in state law has no effect on his federal sentence.” Aplt. App. at 143. It therefore denied the § 2255
motion.
ANALYSIS
1.

COA Issue

The government argues McGee was not entitled to
a COA because his § 2255 motion did not present any
constitutional claims. See 28 U.S.C. § 2253(c)(2) (“A certificate of appealability may issue . . . only if the applicant has made a substantial showing of the denial of a
constitutional right.”); United States v. Mulay, 805 F.3d
1263, 1265 (10th Cir. 2015) (“[W]e may not entertain
appeals from the denial of § 2255 motions that lack an
underlying constitutional claim.”). In his pro se § 2255
motion and associated briefing, McGee presented only
a statutory claim: whether his conviction and sentence
continued to satisfy the requirements for a life sentence under § 841. But before the district court ruled
on his motion, counsel entered an appearance for
McGee and filed a supplemental reply brief. In that
brief, counsel argued that “[c]ontinuing to apply the
enhancement to Mr. McGee when he lacks the predicate convictions violates federal law and the Due Process and Equal Protection Clauses of the Fifth and
Fourteenth Amendments.” Aplt. App. at 114. That

App. 6
argument sufficiently preserved McGee’s due process
claim.
Since we granted a COA, however, we have determined that neither McGee nor his counsel raised an
Eighth Amendment claim in district court. That claim
was waived. See Stouffer v. Trammell, 738 F.3d 1205,
1221 n.13 (10th Cir. 2013) (“We do not generally consider issues that were not raised before the district
court as part of the habeas petition.”). We therefore vacate the previously issued COA concerning the Eighth
Amendment claim and dismiss that claim. See United
States v. Wetzel-Sanders, 805 F.3d 1266, 1267 (10th Cir.
2015) (dismissing appeal as COA was improvidently
granted); Marshall v. Hendricks, 307 F.3d 36, 82 (3d
Cir. 2002) (dismissing specific claims for which COA
was improvidently granted).
2.

Due Process Claim

“In a § 2255 appeal, we review the district court’s
findings of fact for clear error and its conclusions of law
de novo.” United States v. Lewis, 904 F.3d 867, 870
(10th Cir. 2018) (internal quotation marks omitted).
McGee must show that because his prior California
conviction was retroactively modified from a felony to
a misdemeanor, his federal life sentence violates the
Due Process Clause. He relies on Johnson v. United
States, 544 U.S. 295 (2005).
In Johnson, the petitioner obtained an order from
a Georgia state court vacating the predicate convictions that were used to qualify him as a career offender

App. 7
under the Federal Sentencing Guidelines. See id. at
298-301. The Supreme Court concluded that his subsequent § 2255 motion was untimely. See id. at 311. But
the Court acknowledged that “[o]ur cases . . . assume
. . . that a defendant given a sentence enhanced for a
prior conviction is entitled to a reduction if the earlier
conviction is vacated.” Id. at 303 (emphasis added).
Johnson cited prior cases acknowledging a right to
resentencing after a predicate offense has been successfully attacked, vacated, or set aside. See id. (citing
Daniels v. United States, 532 U.S. 374, 382 (2001) (although movants generally cannot use § 2255 proceedings to bring a collateral attack on prior convictions,
they may use state or federal habeas proceedings to set
aside the underlying conviction and, if successful, “may
then apply for reopening of [the] federal sentence”);
Custis v. United States, 511 U.S. 485, 497 (1994)
(same)). Johnson makes it clear that the right has a
substantive component: resentencing should take
place free of the vacated predicate conviction or convictions. See Johnson, 544 U.S. at 303.
The Johnson scenario arises where a defendant
never qualified for an enhanced sentence to begin with
because his underlying predicate conviction was invalid or unconstitutional. Due process concerns may also
arise where a predicate conviction, though valid, did
not qualify for enhancement purposes. See, e.g., United
States v. Shipp, 589 F.3d 1084, 1087-90 (10th Cir.
2009); cf. United States v. Snyder, 871 F.3d 1122, 112830 (10th Cir. 2017) (recognizing resentencing claim but

App. 8
rejecting it on the merits), cert. denied, 138 S. Ct. 1696
(2018).
But McGee’s California conviction fits in neither
category. It was not vacated. Nor has he shown that it
did not qualify as a predicate offense at the time of sentencing. Instead, it was only later modified, as an act
of legislative grace, from a felony to a misdemeanor.
The Supreme Court has left open the question of
when a federal sentence based on a valid and qualifying predicate state conviction, which has been modified
so that the predicate no longer qualifies for enhancement, might violate due process. See McNeill v. United
States, 563 U.S. 816, 825 n.1 (2011) (declining to address the effect on federal sentencing when “a State
subsequently lowers the maximum penalty applicable
to an offense and makes that reduction available to defendants previously convicted and sentenced for that
offense”). Even so, circuit precedent applying § 841 has
made a significant distinction between convictions
that have been vacated or successfully attacked and
convictions, like McGee’s, that have merely been excused as a matter of legislative grace. Only enhancement based on the former raises due process concerns.3
3

Of course, if the distinction we have drawn between vacated and excused convictions under § 841 were arbitrary, that
might also pose a due process problem. See Chapman v. United
States, 500 U.S. 453, 465 (1991) (recognizing due process concern
where a penalty is “based on an arbitrary distinction that would
violate the Due Process Clause of the Fifth Amendment”). But for
the reasons stated in Dyke and other cases, we conclude the distinction is part of a rational sentencing scheme.

App. 9
A. United States v. Dyke
In United States v. Dyke, 718 F.3d 1282 (10th Cir.
2013), the federal district court imposed a 20-year
mandatory minimum sentence under § 841(b)(1)(A),
relying on the defendant’s prior Kansas felony drug
conviction. See id. at 1292. The defendant argued he
should not have received the enhanced sentence because his Kansas conviction had been expunged as a
matter of state law prior to his federal sentencing. But
we upheld his sentence, reasoning that he had committed a second, federal drug offense “after a conviction”
for a prior state one, and the expunction did not “alter
the historical fact of the conviction.” Id. (internal quotation marks omitted). Noting that federal law, not
state law, normally dictates the meaning of a federal
statute, we concluded the plain language of § 841 requires only a former conviction prior to the commission
of the federal offense. Id. Had Congress intended for
expunged convictions to be disregarded, it could have
explicitly said so in § 841, as it had in other statutes.
See id. at 1292-93. Finally, we reasoned that the purpose of expungement is to give the defendant a new
start, but by committing a subsequent offense, the defendant had rejected that opportunity. See id. at 1293.
The Dyke court further opined that “[t]he question
posed by § 841(b)(1)(A) is whether the defendant was
previously convicted, not the particulars of how state
law later might have, as a matter of grace, permitted
that conviction to be excused, satisfied, or otherwise
set aside.” Id. Admittedly, convictions “vacated or reversed due to the defendant’s innocence or an error of

App. 10
law” might not qualify as convictions at all for enhancement purposes. Id.4 But that was not the case
with the defendant’s expunged conviction. See id. Nor
is it McGee’s case.
McGee committed his federal drug offense at a
time when he had “two or more prior convictions for a
felony drug offense [that had] become final,” 21 U.S.C.
§ 841(b)(1)(A).5 Later state-law relief that modified one
of these final convictions did not change that historical
fact. But McGee characterizes the Proposition 47 relief
he received as analogous to vacating his conviction, arguing that the retroactive relief he received means he
should be resentenced as if he had no 1987 California
felony drug conviction. To support his argument, he
cites California cases suggesting that Proposition 47
relief operates more broadly than expungement. See,
e.g., People v. Tidwell, 200 Cal. Rptr. 3d 567 (Cal. Ct.
App. 2016).
In Tidwell, the California Court of Appeals held
that a defendant whose conviction had been expunged
after he successfully completed a probationary period
remained eligible for Proposition 47 relief, which had
4

McGee argues that the Supreme Court cases require him to
show only that he successfully “attacked” his prior convictions to
obtain resentencing, not that the convictions were vacated. Reply
Br. at 12. But he fails to show that an “attack” that successfully
invokes the application of legislative grace, rather than vacating
a conviction for invalidity, requires federal resentencing.
5
Given McGee’s circumstances, we need not resolve the effect of a re-classification of a felony drug conviction under Proposition 47 that occurred before the defendant committed his § 841
offense.

App. 11
the effect of “eras[ing] the conviction[ ]” and “obliterating the fact that the defendant has been convicted of a
felony.” Id. at 573 (internal quotation marks omitted).
But Tidwell does not undermine the applicability of
Dyke to McGee’s case, for several reasons. First, “even
if California decided to give Proposition 47 retroactive
effect for purposes of its own state law, that would not
retroactively make [McGee’s] felony conviction a misdemeanor for purposes of federal law.” United States v.
Diaz, 838 F.3d 968, 975 (9th Cir. 2016). Second, Tidwell
was not concerned with retrospectively undoing the
collateral consequences of a felony conviction in a
separate federal proceeding. The California law codifying Proposition 47 provides that “[r]esentencing pursuant to this section does not diminish or abrogate the
finality of judgments in any case that does not come
within the purview of this section.” Cal. Penal Code
§ 1170.18(n). Finally, Tidwell does not erase the distinction we have made, for federal sentencing purposes, between a conviction that has been vacated
because of a constitutional error or actual innocence
and a conviction that has merely been reclassified as a
matter of legislative grace. Even if the defendant in
Tidwell received a double dose of legislative grace—
through both probationary expungement and Proposition 47—that does not signify that his conviction was
vacated under circumstances that would foreclose the
§ 841 enhancement.

App. 12
B. United States v. Diaz
Building on our reasoning in Dyke, the Ninth Circuit specifically concluded in United States v. Diaz, 838
F.3d 968 (9th Cir. 2016) that an offense modification
under Proposition 47 did not require federal resentencing. The defendant’s circumstances in Diaz were similar to McGee’s, except that he brought his claim on
direct appeal. The Ninth Circuit held “Proposition 47
does not change the historical fact that [the defendant]
violated § 841 ‘after two or more prior convictions for a
felony drug offense [had] become final.’ ” Id. at 971
(quoting 21 U.S.C. § 841(b)(1)(A)). It therefore denied
relief.
The Ninth Circuit reasoned that a state’s later dismissal or expungement of a predicate state conviction
had no effect on whether § 841’s requirements were
met, unless that dismissal or expungement was due to
the illegality of the prior conviction due to factors such
as trial error or actual innocence. See id. at 973. The
Ninth Circuit built on our reasoning in Dyke, holding
that the relevant inquiry under § 841(b)(1)(A) is
“whether the defendant was previously convicted, not
the particulars of how state law later might have permitted relief from the defendant’s state conviction.”
Diaz, 838 F.3d at 974 (internal quotation marks omitted). “In other words,” the Ninth Circuit explained, “a
state making a change to a state conviction, after it has
become final, does not alter the historical fact of the
[prior state] conviction becoming final—which is what
§ 841 requires.” Id. (quoting Dyke, 718 F.3d at 1293).

App. 13
Diaz also rebuts McGee’s argument that the Proposition 47 relief he received had greater consequences
than a mere expungement. The Ninth Circuit reached
precisely the opposite conclusion. See Diaz, 838 F.3d at
974 (stating that dismissal or expungement of a predicate state conviction does not prevent the prior conviction from continuing to count as a predicate under
§ 841, even though dismissal or expungement is
“a more drastic change than merely reclassifying it
as a misdemeanor” under Proposition 47 (emphasis
added)).
In his opening brief, McGee dismisses Diaz in a
single sentence, arguing it “does not address the constitutional issues raised here and of course does not
control in this Circuit.” Aplt. Opening Br. at 9. But we
find the Ninth Circuit’s analysis highly persuasive on
a key constitutional issue: whether McGee’s sentence
under § 841 was authorized by law. See Snyder, 871
F.3d at 1128 (“A sentence that is not authorized by law
is certainly an actual and substantial disadvantage of
constitutional dimensions.” (internal quotation marks
omitted)). For the reasons explained in Dyke and Diaz,
McGee’s sentence remains authorized, and he has
failed to demonstrate a due process violation.
C. McNeill v. United States
Finally, although McGee relies on a footnote in
McNeill, the overall reasoning of that case is unfavorable to his position. In McNeill, the defendant pleaded
guilty to possession of a firearm by a felon. Under the

App. 14
Armed Career Criminal Act, 18 U.S.C. § 924(e)(1)
(ACCA), he was subject to a fifteen-year minimum sentence if he had three previous convictions for a violent
felony or a serious drug offense. At federal sentencing,
he contested the use of his North Carolina drug trafficking convictions as “serious drug offenses.” See
McNeill, 563 U.S. at 818 (internal quotation marks
omitted). The ACCA defined a “serious drug offense” as
one for which “a maximum term of imprisonment of
ten years or more is prescribed by law.” Id. at 817 (internal quotation marks omitted). At the time the defendant committed his drug offenses, each carried a
ten-year maximum sentence, and he received ten-year
sentences for them. But over a decade before he was
sentenced under the ACCA, North Carolina reduced
the maximum sentences for his crimes below the
ACCA threshold. See id. at 818. In sentencing him under the ACCA, the federal court relied on the 10-year
maximum sentence that applied at the time he committed his crimes. The Fourth Circuit affirmed. Id.
The Supreme Court determined the plain language of the ACCA “requires a federal sentencing court
to consult the maximum sentence applicable to a defendant’s previous drug offense at the time of his conviction for that offense. . . . The only way to answer this
backward-looking question is to consult the law that
applied at the time of that conviction.” Id. at 820 (internal quotation marks omitted). The Court noted the
“ACCA is concerned with convictions that have already
occurred,” and rejected the defendant’s argument that
the phrase “is prescribed by law” in the definition of a

App. 15
“serious drug offense” referred to state law in effect at
the time of sentencing. Id. The Court opined that
“[a] defendant’s history of criminal activity—and the
culpability and dangerousness that such history
demonstrates—does not cease to exist when a State reformulates its criminal statutes in a way that prevents
precise translation of the old conviction into the new
statutes.” Id. at 823. In a similar sense, McGee’s status
as a person convicted of a felony drug offense, which
existed at the time he committed his federal drug
crime, did not disappear as a historical matter simply
because his offense was reclassified.
D. Conclusion
For the reasons we have stated, McGee’s sentence
is authorized and constitutional. The increased penalties under § 841 are designed to discourage recidivism.
See Dyke, 718 F.3d at 1293 (noting § 841(a)(1)(A) is
“aimed at punishing recidivism”). If a defendant committed a serious federal drug offense knowing that he
had two prior felony drug convictions, and if has not
shown that he was factually innocent of those prior
convictions or that they were legally infirm, it does not
violate due process to deny resentencing even if a state
legislature later graciously decreased the penalty associated with a prior offense.

App. 16
CONCLUSION
We affirm the district court’s denial of McGee’s
§ 2255 motion.
Entered for the Court
Gregory A. Phillips
Circuit Judge

App. 17
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OKLAHOMA
UNITED STATES
OF AMERICA,
Plaintiff,
v.
MALCOLM DEROME
McGEE,
Defendant.

)
)
)
) Case No. 00-CR-0105-CVE
) (15-CV-0667-CVE-JFJ)
)
)
)

OPINION AND ORDER
Now before the Court is defendant’s motion to
vacate, set aside or correct sentence under 28 U.S.C.
§ 2255 (Dkt. # 151). Defendant Malcolm Derome McGee
argues that one of his prior convictions was reduced
from a felony to a misdemeanor, and he asserts that he
should be resentenced without application of a mandatory life sentence under 21 U.S.C. §§ 841(b)(1)(A) and
851(a)(1).1 The government responds that the redesignation of defendant’s conviction as a misdemeanor under state law does not affect the validity of his federal

1

Defendant was not represented by counsel when he filed his
§ 2255 motion (Dkt. # 151) and his reply (Dkt. # 158), but the
Stanford Law School Three Strikes Project requested leave to enter an appearance on behalf of defendant. Dkt. # 160. The Court
granted the motion and permitted counsel to file a supplemental
brief on defendant’s behalf. Dkt. ## 162, 163. Defense counsel has
filed a supplemental brief (Dkt. # 168) and a notice of supplemental authority (Dkt. # 169).

App. 18
sentence, and the government asks the Court to deny
defendant’s § 2255 motion.
I.
On July 17, 2000, defendant was charged by complaint with conspiracy to possess with intent to distribute phencyclidine (PCP), and he was arrested on the
same day. Dkt. ## 1, 2. Defendant made his initial appearance and the Court appointed counsel to represent
him. Dkt. # 3. A grand jury returned an indictment
charging defendant with conspiracy to possess with intent to distribute PCP (count one), possession with intent to distribute of at least one kilogram of a mixture
or substance containing a detectable amount of PCP
(count two), and use of a communication facility to facilitate a drug trafficking crime (count three). Dkt. # 7.
The case was randomly assigned to the Honorable
Sven Erik Holmes. Counts one and two of the indictment carried a statutory mandatory minimum sentence of 10 years and a statutory maximum sentence
of life imprisonment. However, the government filed
an enhancement information (Dkt. # 15) under § 851
based on two prior convictions for felony drug offenses,
and defendant faced a mandatory minimum sentence
of life imprisonment if convicted of count one or two.
See 21 U.S.C. § 841(b)(1) (“If a person commits a violation of this subparagraph . . . after two or more prior
convictions for a felony drug offense have become final,
such person shall be sentenced to a mandatory term of
life imprisonment . . . ”). Defendant exercised his right
to a jury trial and he was convicted of all counts. Dkt.

App. 19
# 35. Defendant filed a motion to arrest judgment (Dkt.
# 36) under Fed. R. Civ. P. 34 as to count one, and his
motion was granted. Dkt. # 41. Defendant was sentenced to life imprisonment as to count two and 56
years as to count three, and the sentences were ordered
to run concurrently with each other. Dkt. # 47.
Defendant appealed his convictions and sentence,
and the Tenth Circuit Court of Appeals remanded the
case for resentencing as to count three. Dkt. # 61. The
maximum sentence for an offense under 21 U.S.C.
§ 843(b) is eight years, and the sentencing court incorrectly found that defendant committed seven separate
violations of § 843(b) in calculating defendant’s sentence as to count three. On remand, the sentencing
judge imposed a sentence of 96 months as to count
three and ordered the sentence to run concurrently
with the life sentence imposed as to count two. Dkt.
# 91, at 2. Defendant filed a § 2255 motion asserting
that he received ineffective assistance of trial and appellate counsel. Dkt. # 101. After defendant’s § 2255
motion was filed, the case was randomly reassigned
to the undersigned. Dkt. # 116. Defendant’s § 2255
motion was denied, and the Tenth Circuit rejected defendant’s request for a certificate of appealability. Dkt.
## 117, 126. Defendant filed two subsequent motions
that were treated as second or successive § 2255 motions (Dkt. ## 128, 134), and both motions were dismissed for lack of jurisdiction.
Defendant sought authorization from the Tenth
Circuit to file a second or successive § 2255 motion on
the ground that one of the convictions used to enhance

App. 20
his sentence as to count two had been reduced from a
felony to a misdemeanor. Dkt. # 150. The Tenth Circuit
cited In re Weathersby, 717 F.3d 1108 (10th Cir. 2013),
for the proposition that it was unnecessary for defendant to obtain authorization to proceed with a second or
successive § 2255 motion when seeking relief based on
a claim that was not ripe when his initial § 2255 motion was filed. Id. at 4. On November 20, 2015, defendant filed a § 2255 motion (Dkt. # 151) in this Court
arguing that he could no longer be sentenced to life imprisonment under § 841(b)(1)(A), because one of his
two qualifying felony drug convictions had been reduced to a misdemeanor. The Court ordered the government to respond to defendant’s motion. Dkt. # 153.
The government has filed a response agreeing with defendant to the extent that his motion should not be
treated as a second or successive § 2255 motion, but
the government objects to defendant’s request to be
resentenced without application of a mandatory life
sentence. Dkt. # 156. Defendant has filed a reply (Dkt.
# 158) and the Court has received supplemental briefing from both parties (Dkt. ## 164, 168, 169), and defendant’s § 2255 motion is ripe for adjudication. The
Court has reviewed defendant’s motion and finds that
he could not have raised his claim in his original § 2255
motion, and the Court can consider defendant’s motion
(Dkt. # 151) without reference to the limitations on filing a second or successive § 2255 motion. In re Weathersby, 717 F.3d at 1110-11.

App. 21
II.
Defendant argues that he should be resentenced
without application of a mandatory life sentence under
§ 841(b)(1)(A), because one of the two felony convictions used to enhance his sentence has been reduced to
a misdemeanor. The government responds that the
subsequent reduction of a penalty under state law has
no effect on defendant’s federal sentence, because it is
undisputed that defendant had two “final” convictions
for felony drug offenses when he was sentenced and
Proposition 47 does not alter the historical fact of defendant’s prior felony convictions.
On November, 4, 2014, voters in the state of California passed Proposition 47, also known as the Safe
Neighborhoods and Schools Act, and Proposition 47
took effect on November 5, 2014. People v. Rivera, 183
Cal. Rptr. 3d 362 (Cal. Ct. App. 2015). Proposition 47
reduced certain drug possession offenses from a felony
to a misdemeanor, and the maximum sentence for these
offenses became no more than one year imprisonment.
CAL. HEALTH & SAFETY CODE § 11350. Proposition 47
also created a procedure for criminal defendants who
had been convicted of a felony drug offense to petition
the state court to redesignate a felony drug conviction
as a misdemeanor. CAL. PENAL CODE § 1170.18. The
presentence investigation report (PSR) in this case
states that defendant had been convicted of possession
of cocaine on November 7, 1987, and defendant was
sentenced to two years imprisonment. The maximum
sentence of imprisonment under the version of § 11350
in effect at the time was four years. Defendant filed a

App. 22
petition in the Superior Court of California in Los
Angeles County and, on March 12, 2015, his 1987 felony drug conviction was reduced to a misdemeanor.
Dkt. # 151, at 21. The conviction was one of the two
felony convictions identified in the enhancement information that was used to enhance the statutory mandatory minimum sentence to life imprisonment.
Defendant argues that he is no longer eligible
for a mandatory life sentence under § 841(b)(1)(A), because one of the felony drug offenses used to enhance
his sentence has been reduced to a misdemeanor. Dkt.
# 151, at 17-18. Section 841(b)(1)(A) states that “[i]f
any person commits a violation of this subparagraph
. . . after two or more prior convictions for a felony drug
offense have become final, such person shall be sentenced to a mandatory term of life imprisonment. . . .”
21 U.S.C. § 841(b)(1)(A). A “felony drug offense” is defined as “an offense that is punishable by imprisonment for more than one year under any law of the
United States or of a State . . . that prohibits or restricts conduct relating to narcotic drugs. . . .” 21 U.S.C.
§ 802(44). A state drug offense qualifies as a “felony
drug offense” if it is punishable by more than one year
imprisonment, even if the offense is classified as a misdemeanor under state law. Burgess v. United States,
553 U.S. 124, 126-27 (2008). Federal law must be applied to determine whether a conviction is a “felony
drug offense, because referencing state law to interpret
the definition of the term “felony drug offense” would
disrupt the uniform application of the federal drug
laws. United States v. Dyke, 718 F.3d 1282, 1292 (10th

App. 23
Cir. 2013) (drug conviction that was expunged under
state law could still be considered a “felony drug offense” under federal law). The alteration of the status
of a conviction under state law does not erase the historical fact of the conviction, and state law does not
“dictate the meaning of a federal statute, at least absent some evidence Congress sought to defer to and incorporate state law.” Id. Congress did not defer to or
incorporate state law when drafting § 841. Id. “The
question posed by § 841(b)(1)(A) is whether the defendant was previously convicted, not the particulars of
how state law later might have, as a matter of grace,
permitted the conviction to be excused, satisfied, or
otherwise set aside.” Id. at 1293.
The parties dispute whether the reclassification
of defendant’s 1987 conviction gives rise to a right to
resentencing without application of the mandatory
minimum life sentence. The Tenth Circuit has not considered whether reclassification of a conviction under
Proposition 47 has any effect on a previously imposed
sentence under § 841, but the Ninth Circuit Court of
Appeals has directly considered this issue. In United
States v. Diaz, 838 F.3d 968 (9th Cir. 2016), the defendant had been convicted of federal drug offenses under
§ 841, and he was sentenced to life imprisonment because of his two prior felony convictions under California law. Id. at 971. The defendant successfully petitioned the state courts to reduce one of his convictions
to a misdemeanor, and he argued that he was no longer
eligible for a life sentence under § 841. Id. The Ninth
Circuit initially noted that federal law would be

App. 24
applied to determine the effect of California’s reclassification of an offense, and a state court’s decision to
grant post-conviction relief generally has no retroactive effect on a previously imposed federal sentence. Id.
at 972. Under federal law, the historical fact of a conviction is not changed for sentencing purposes, even if
that sentence is expunged under state law, but there
would be an exception to this rule if a state court
granted post-conviction relief because of a constitutional violation or the defendant was actually innocent
of the charged offense. Id. at 973. Citing the Tenth Circuit’s decision in Dyke, the Ninth Circuit stated that
§ 841 is a “backwardlooking” statute and sentencing
enhancements based on prior convictions under this
statute are triggered when a defendant has a qualifying conviction that has become “final.” Id. at 973-74.
Changes in state law concerning the treatment of a
prior conviction do not alter the historical fact of the
conviction, and there is no indication in § 841 that Congress authorized federal courts to give retroactive
effect to state laws reclassifying or altering prior convictions. Id. at 974. In fact, it would defeat the purpose
of the enhancement for recidivist offenders to ignore
the fact of a prior conviction, and it would also undermine the uniformity of federal sentencing laws
to retroactively incorporate changes to the status of
convictions under state law. Id. The Ninth Circuit concluded that the reduction of the defendant’s prior conviction to a misdemeanor under Proposition 47 had no
effect on his federal sentence and affirmed his life sentence.

App. 25
Defendant relies heavily on California case law
and statutes to support his argument that he should
be resentenced without a mandatory life sentence. He
argues that Proposition 47 applies prospectively and
retroactively as a matter of state law and that it erases
the prior felony conviction for all purposes. Dkt. # 168,
at 8-9; Dkt. # 169. He argues that the Court should decline to follow Diaz, because it is not binding precedent
and he claims that the case was wrongly decided. Dkt.
# 168, at 11. However, Tenth Circuit precedent is clear
that the interpretation of the term “felony drug offense” is governed by federal law, and even the subsequent expunction of a conviction under state law does
not alter the historical fact of a conviction for the purpose of sentencing under § 841. Dyke, 718 F.3d at 1292.
The Ninth Circuit expressly relied on Dyke when faced
with the same issue raised in this case, and the reasoning of Diaz is consistent with Tenth Circuit precedent.
Plaintiff may be correct that his 1987 felony drug conviction is “erased” as a matter of California law, but
this does not change the historical fact of the conviction under federal drug laws. See Dkt. # 169, at 2.
Other federal district courts in the Tenth Circuit have
considered the issue presented in this case, and in each
case courts have rejected the argument that the reduction of a prior felony conviction to a misdemeanor
under Proposition 47 undermines the validity of a
sentencing enhancement under federal law. McCoy v.
United States, 2017 WL 5176347 (D. Utah Nov. 7, 2017)
(rejecting argument that the reduction of an offense to
a misdemeanor under Proposition 47 had any effect on
the defendant’s status as a career offender under the

App. 26
sentencing guidelines); Perez v. United States, 2017
WL 108037 (D. Utah. Jan. 11, 2017) (Proposition 47 did
not alter the historical fact of defendant’s felony drug
conviction for the purpose of sentencing under § 841);
United States v. Jackson, 2016 WL 9774956 (D.N.M.
Nov. 7, 2016) (felony conviction reduced to misdemeanor
under Proposition 47 could still be considered a prior
felony conviction for the career offender enhancement);
United States v. Bell, 2016 WL 6407427 (W.D. Okla.
Oct. 28, 2016) (following Diaz and finding that Proposition 47 did not affect defendant’s sentence under federal law).
The Court finds that Diaz is persuasive authority
that is consistent with Tenth Circuit precedent, and
the Court will follow Diaz in ruling on defendant’s
§ 2255 motion. It is undisputed that defendant’s 1987
conviction for possession of cocaine carried a maximum
punishment of more than one year, and the PSR in this
case shows that defendant was actually sentenced to
two years imprisonment. The subsequent reduction of
this conviction to a misdemeanor does not change the
historical fact that defendant was convicted of this felony and that the conviction was “final” when he was
sentenced in this case. Defendant had two felony convictions for felony drug offenses when he was sentenced, and the subsequent reduction of one of those
felony convictions to a misdemeanor due to a change in
state law has no effect on his federal sentence. The
Court finds that defendant’s § 2255 motion (Dkt. # 151)
presents no other claims and his motion should be denied.

App. 27
III.
The Court has considered the claim raised in defendant’s § 2255 motion (Dkt. # 151) and finds that he
is not entitled to relief. Rule 11 of the Rules Governing
Section 2255 Proceedings instructs that “[t]he district
court must issue or deny a certificate of appealability
when it enters a final order adverse to the applicant.”
Pursuant to 28 U.S.C. § 2253, the court may issue a certificate of appealability “only if the applicant has made
a substantial showing of the denial of a constitutional
right,” and the court “indicates which specific issue or
issues satisfy [that] showing.” A petitioner can satisfy
that standard by demonstrating that the issues raised
are debatable among jurists, that a court could resolve
the issues differently, or that the questions deserve further proceedings. Slack v. McDaniel, 529 U.S. 473, 48384 (2000) (citing Barefoot v. Estelle, 463 U.S. 880, 893
(1983)). After considering the record in this case, the
Court concludes that a certificate of appealability
should not issue as defendant has not made a substantial showing of the denial of a constitutional right. Defendant has raised an argument that his sentence
violates § 841 due to the reduction of one of his prior
convictions to a misdemeanor. However, this is a statutory, not a constitutional, claim, and he cannot obtain
a certificate of appealability unless he makes a substantial showing that his constitutional rights have
been violated. United States v. Bell, 689 F. App’x. 598
(10th Cir. May 30, 2017) (classifying the defendant’s
argument concerning the effect of Proposition 47 as a
statutory argument and finding no plausible argument

App. 28
that the defendant’s constitutional rights had been violated).2
IT IS THEREFORE ORDERED that defendant’s motion to vacate, set aside or correct sentence
(Dkt. # 151) is denied. A separate judgment is entered
herewith.
DATED this 30th day of January, 2018.
/s/ Claire V. Eagan
CLAIRE V. EAGAN
UNITED STATES
DISTRICT JUDGE

2

Unpublished decisions are not precedential, but they may
be cited for their persuasive value. See Fed. R. App. 32.1; 10th
Cir. R. 32.1.

App. 29
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

UNITED STATES
OF AMERICA,
Plaintiff - Appellee,
v.

No. 18-5019

MALCOM DEROME
MCGEE,
Defendant - Appellant.
-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

(Filed Apr. 2, 2019)
Before LUCERO, KELLY, and PHILLIPS, Circuit
Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court who are in regular
active service. As no member of the panel and no judge
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court
/s/ Elisabeth A. Shumaker
ELISABETH A. SHUMAKER,
Clerk

